''22UNITED STATE OF AMERICA

FEDERAL TRADE COMMISSION
WASHINGTON . D. C. 20580

Division of

Marketing Practices
Mary S. Feinstein
Attorney
Direct Dial:
12021 326- 3064

December 14, 1995
K. Wayne Bishop

President

Chapel Hill Funeral Home
542 West 52nd Street

Anniston, AL 36206
Re:

Charges for the Basic Services of Funeral Director and Staff

Dear Mr. Bishop:

This letter is in response to your letter of December 13,
you seek staff' s opinion regarding whether
the fee for the basic services of the funeral director and staff
may be charged to every person who arranges a funeral at your
funeral home. The answer to this question depends upon whether
your general price list (" GPL") delineates a fee for the basic

1995. In that letter ,

services of the funeral director and staff.

The Funeral Rule requires that a funeral provider itemize
prices for 16 funeral goods and services, if a funeral provider
offers those goods and services to customers.
See Complying with
the Funeral Rule, June 1994 , at 13. The prices on the GPL must
be accurate and up- to- date, and they should reflect the prices
that you actually charge customers.
Id.
Among those 16 items
is the fee for the basic services of the funeral director and
staff. 16 C. R. !i 453. 2(b) (4) (iii) (C). If your funeral home
GPL has a fee for the basic services of funeral director and
staff , then you may charge such a fee to all customers. The only
exception to this Rule provision is when a customer selects any
of four " minimal services, i. e. , forwarding of remains,
receiving remains , direct cremation , or an immediate burial. The
prices for these four minimal services must include any fee for
the basic services of funeral director and staff.

Id.

at 14.

The fee for basic services of funeral director and staff is the
only nondeclinable fee allowed under the Funeral Rule.

Of course , you may offer discounts under special
circumstances, such as arrangements for friends, relatives, or to
families who cannot otherwise afford your services. However , you
should not inflate the prices on your price lists in order to

offer all or most of your customers a discount. In that case,
the discounted price would be the accurate price and should be
reflected on the GPL. To reiterate, absent special circumstances
warranting a discount, you should charge the same nondeclinable
basic services fee to all customers, unless they choose a
minimal service " for which the basic service fee is already

included.

I hope that this information is helpful to you. Please be
advised that the views expressed here are those of FTC staff.
They have not been reviewed, approved or adopted by the
Commission, and they are not binding upon the Commission.
However , they do reflect the opinion of those staff charged with
enforcement of the Funeral Rule.

ere1

Feinstein ,

Esq.

1 Rule Enforcement Staff

